U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Carl Richardson Samson v. United States of America
S.Ct. No. 21-5650
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 30,
2021, and placed on the docket on September 13, 2021. The government’s response is due on
October 13, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 21, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5650
SAMSON, CARL RICHARDSON
USA

RICHARD C. KLUGH, JR.
INGRAHAM BUILDING
40 NW 3RD ST., PH 1
MIAMI, FL 33128
305 903 6900
RICKKLU@AOL.COM

